    Report No. D-2007-118          August 24, 2007




   Contract Administration of the Ice Delivery Contract
  Between International American Products, Worldwide
Services and the U.S. Army Corps of Engineers During the
            Hurricane Katrina Recovery Effort
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                               ODIG-AUD (ATTN: Audit Suggestions)
                               Department of Defense Inspector General
                               400 Army Navy Drive (Room 801)
                               Arlington, VA 22202-4704




Acronyms
FEMA                         Federal Emergency Management Agency
GAO                          Government Accountability Office
IAP                          International American Products, Worldwide Services
IG                           Inspector General
NRP                          National Response Plan
SOP                          Standard Operating Procedure
                             INSPECTOR GENERAL

                            DEPARTMENT OF DEFENSE

                             400 ARMY NAVY DRIVE

                        ARLINGTON, VIRGINIA 22202-4704





                                                                        August 24, 2007

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY



SUBJECT: RepOit on the Contract Administration ofthe Ice Delivery Contract Between
         International American Products, Worldwide Services and the U.S. Anny
         Corps of Engineers During the Hurricane Katrina Recovery Effort (RepOit
         No. D-2007-118)


        We aTe providing this report for your information and use. The Commander, U.S.
ATmy Corps of Engineers provided comments. We considered management comments
on the draft of the report when preparing the final report.

        Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no uuresolved issues. Therefore, no additional comments aTe
required.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Deborah L. Culp at (703) 604-9335 (DSN 664-9335) or Ms. Bobbie Sau Wan at (703)
604-9259 (DSN 664-9259). See Appendix D for the repolt distribution. The team
members are listed inside the back cover.

                              By direction of the Deputy Inspector General for Auditing:



                                        ~{l~
                                         Bruce A. Bmton

                                 Deputy Assistant Inspector General

                                Acquisition and Contract Management

               Department of Defense Office of Inspector General
Report No. D-2007-118                                                   August 24, 2007
    (Project No. D2006-D000CG-0075.000)

   Contract Administration of the Ice Delivery Contract Between International 

  American Products, Worldwide Services and the U.S. Army Corps of Engineers 

                During the Hurricane Katrina Recovery Effort 


                                 Executive Summary
Who Should Read This Report and Why? U.S. Army Corps of Engineers contracting
officials and emergency management personnel should read this report. This report
discusses the administration of the 2003 ice delivery contract used for the Hurricane
Katrina recovery effort.

Background. The U.S. Army Corps of Engineers Principal Assistant Responsible for
Contracting requested a review on the administration of the ice delivery process between
International American Products, Worldwide Services and the U.S. Army Corps of
Engineers. Specifically, we limited our review to only the administration of the ice
delivery process during the Hurricane Katrina recovery effort. The report also addresses
other matters identified during our review of the administration of the 2003 ice delivery
contract. We issued DoD Inspector General Report No. 2006-116, “Ice Delivery
Contracts Between International American Products, Worldwide Services and the U.S.
Army Corps of Engineers,” on September 26, 2006. That report addressed Congressman
Bennie Thompson’s concerns on the award of the ice delivery contracts between
International American Products, Worldwide Services and the U.S. Army Corps of
Engineers. This report addresses the administration of the 2003 ice delivery contract
related to the Hurricane Katrina recovery effort.

The U.S. Army Corps of Engineers Galveston District competitively awarded contract
DACW64-03-D-0003 to International American Products, Worldwide Services on
November 21, 2002, for packaged ice, transportation, and management of the distribution
system during emergencies. The Federal Emergency Management Agency tasked the
U.S. Army Corps of Engineers to place delivery orders on this contract during disaster
recovery efforts. The U.S. Army Corps of Engineers Headquarters assigned the National
Ice/Water Mission for the Hurricane Katrina recovery effort to the U.S. Army Corps of
Engineers Charleston District. The U.S. Army Corps of Engineers Charleston District
paid International American Products, Worldwide Services about $79.5 million on
342 invoices as of the start of our review on August 14, 2006, for the Hurricane Katrina
recovery effort.

Results. The U.S. Army Corps of Engineers Charleston District did not effectively
administer the 2003 ice delivery contract for the Hurricane Katrina recovery effort. The
Corps Charleston District did not provide adequate training and guidance for invoice
processing over the National Ice/Water Mission. They made inaccurate or inadequately
supported payments on 142 of the 342 invoices received in the amount of about
$262,000. These included underpayments of about $79,000 and overpayments of about
$183,000. The end result was an overpayment of nearly $104,000. Also, the invoices
may have additional monetary impact that we were not able to quantify because of the
lack of supporting documentation. In addition, the Federal Emergency Management
Agency’s redirection of trucks caused unauthorized expenditure of Government funds for
onward miles and standby time.

The U.S. Army Corps of Engineers should provide training on procedures for accepting
ice and documenting ice deliveries, and finalize the standard operating procedures for
processing invoices. The U.S. Army Corps of Engineers Charleston District should
recoup $103,723.52 in overpayments from International American Products, Worldwide
Services. In addition, the U.S. Army Corps of Engineers should examine the accuracy of
the data provided by the automated tracking system required by the 2006 ice delivery
contract and determine whether future ice delivery contracts should include the use of
automated tracking systems to process invoices.

The issues pertaining to the Federal Emergency Management Agency will be addressed
in a separate memorandum to the Department of Homeland Security.

The U.S. Army Corps of Engineers Charleston District personnel can improve internal
controls for administering ice delivery contracts by ensuring that personnel performing
the National Ice/Water Mission are provided with the appropriate guidance and are
properly trained. We did not consider the internal control weaknesses to be material.
(See the Finding section for the detailed recommendations.)

Management Comments and Audit Response. The Commander, U.S. Army Corps of
Engineers concurred with the recommendations. The comments were responsive and no
additional comments are required. A discussion of the management comments is in the
Finding section of the report, and the complete text of the comments is in the
Management Comments section.




                                            ii
Table of Contents 


Executive Summary                                                          i


Background                                                                 1


Objective                                                                  2


Review of Internal Controls                                                2


Finding
     Administration of the 2003 Ice Delivery Contract Used During the 

      Hurricane Katrina Recovery Effort                                    3

Other Matters of Interest                                                 11 


Appendixes
     A.   Scope and Methodology                                           14 

     B.   Prior Coverage                                                  16 

     C.   Delivery Ticket Process                                         18 

     D.   Report Distribution                                             19 


Management Comments
     Department of the Army                                               21

Background 

    This is the second of two reports discussing ice delivery contracts used for
    emergency situations. The U.S. Army Corps of Engineers (Corps) Principal
    Assistant Responsible for Contracting requested a review on the ice delivery
    process between International American Products, Worldwide Services (IAP) and
    the Corps. Specifically, we limited our review to only the administration of the
    ice delivery process during the Hurricane Katrina recovery effort. We issued
    DoD Inspector General (IG) Report No. 2006-116, “Ice Delivery Contracts
    Between International American Products, Worldwide Services and the U.S.
    Army Corps of Engineers,” on September 26, 2006. The report addressed
    Congressman Bennie Thompson’s concerns on the award of the ice delivery
    contracts between IAP and the Corps. This report addresses the administration of
    the 2003 ice delivery contract related to the Hurricane Katrina recovery effort.

    Emergency Guidance. The “Robert T. Stafford Disaster Relief Act” (Stafford
    Act) and the 2004 National Response Plan (NRP) provide guidance to
    Government officials to use during emergency situations. The Stafford Act
    authorizes the President to provide financial and other forms of assistance to
    support response, recovery, and mitigation efforts following declared disasters.
    The 2004 NRP is used to respond to the Presidential declarations. The 2004 NRP
    was designed to provide structure for effective and efficient incident management
    among the Federal, State, and local emergency management agencies after a
    disaster. The 2004 NRP authorized the Federal Emergency Management Agency
    (FEMA), part of the Department of Homeland Security, to initiate mission
    assignments. The Corps is primarily responsible for one of the 15 NRP functions,
    Emergency Support Function #3, “Public Works and Engineering.”

    Advance Contracting Initiatives Contract. The Corps developed and
    implemented “Advance Contracting Initiatives” to use for disaster relief. Under
    Advance Contracting Initiatives, requirements contracts are awarded pre-disaster
    and provide Corps contracting personnel the ability to place delivery orders after
    a disaster at the rates in the pre-negotiated contract for supplies and services.
    Agencies use requirements contracts as a method to fill actual needs by placing
    delivery orders against the contracts. The Corps Galveston District competitively
    awarded requirements contract DACW64-03-D-0003 to IAP on November 21,
    2002, for packaged ice, transportation, and management of the distribution
    system during emergencies. FEMA tasked the Corps to place delivery orders on
    this contract during disaster recovery efforts. The Corps Headquarters assigned
    the National Ice/Water Mission for the Hurricane Katrina recovery effort to the
    Corps Charleston District. The Corps Charleston District obligated
    approximately $102 million to the requirements contract for ice and related
    services in support of the Hurricane Katrina recovery effort. The Corps
    Charleston District paid about $79.5 million on 342 invoices related to the
    Hurricane Katrina recovery effort as of August 14, 2006. We reviewed invoices
    for the following items that were purchased during option year 2 under contract
    DACW64-03-D-0003:

        •	 Delivered packaged ice: The Corps purchased ice in 40,000-pound
           increments at $.28 per pound. IAP was required to provide ice anywhere
           within the continental U.S. at this rate.


                                        1

         •	 Additional ground mileage: The Corps paid $2.60 per mile if a truck was
            directed beyond the location specified in the delivery order.
         •	 Excess standby time: The Corps paid $54.00 per hour after the first hour
            if the Corps required a delivery truck to wait at a delivery location.

     Delivery Ticket Processing. The Corps Charleston District used an IAP-
     developed standard delivery ticket in documenting 2003 ice contract delivery
     orders. Government representatives completed the ticket as the delivery occurred
     to show acceptance of the ice, to record the locations visited by the trucks, to
     validate the length of time for trucks that were in standby mode at a drop-off
     location, and to record the miles the trucks traveled after leaving the original
     location. The driver retained the original delivery ticket until returning it to IAP
     for payment. See Appendix C for more details on the delivery ticket process.

     Contingency Contracting. The Army established guidance for contracting
     personnel completing contingency humanitarian assistance in the Army Federal
     Acquisition Regulation Manual No. 2 (Contingency Contracting),
     December 1993. The manual, including Appendix C, “Checklists,” provides
     guidance for implementing the Federal Acquisition Regulation, Defense Federal
     Acquisition Regulation Supplement, and other related regulations. Appendix C
     provides contracting officers and contracting organizations with general
     checklists required to implement the contracting actions and the management
     process necessary in a contingency environment. Appendix C-2,
     “Responsibilities,” requires the manager/contracting officers to use the
     management control checklist to “test whether prescribed controls are in place,
     operational and effective.” Appendix C-2 also requires as an internal control
     mechanism that contracting officer’s representatives, inspectors, functional
     managers, and others routinely involved in performing contract management
     functions be advised and trained regarding their role in contract management. In
     addition, Appendix C-2 states that employees should have both formal classroom
     training and informal on-the-job training and that the training should be timely,
     adequate, and appropriate.

Objective
     Our overall audit objective was to review the administration of the 2003 ice
     delivery contract between IAP and the Corps related to the Hurricane Katrina
     recovery effort as requested by the Corps’ Principal Assistant Responsible for
     Contracting. See Appendix A for a discussion of the scope and methodology and
     Appendix B for prior coverage related to the objective.

Review of Internal Controls
     We determined that Corps personnel can improve internal controls for
     administering ice delivery contracts by ensuring that personnel performing the
     National Ice/Water Mission are provided with the appropriate guidance and are
     properly trained. We did not consider the internal control weaknesses to be
     material. Implementing the report recommendations should strengthen controls
     for administering ice delivery contracts. See the Finding section of the report for
     a detailed discussion on the internal controls.


                                          2

Administration of the 2003 Ice Delivery
Contract Used During the Hurricane Katrina
Recovery Effort
            The Corps Charleston District did not effectively administer the 2003 ice
            delivery contract during the Hurricane Katrina recovery effort. We
            identified internal control deficiencies with the Corps administration of
            the contract in that the Corps Charleston District did not:

                •	 sufficiently train responsible personnel on the guidance for
                   accepting ice at drop-off locations,

                •	 establish guidance or sufficiently train personnel temporarily
                   assigned to the National Ice/Water Mission to process invoices,
                   and

                •	 always process invoices accurately or in accordance with
                   agreements and obtain adequate supporting documentation.

            In addition, FEMA redirected some of the contracted ice trucks without
            obtaining the authority to do so from the responsible Corps contracting
            officer.

            Consequently, the Corps Charleston District made inaccurate or
            inadequately supported payments on 142 of the 342 invoices reviewed in
            the amount of about $262,000. These included underpayments of about
            $79,000 and overpayments of about $183,000. The end result was an
            overpayment of nearly $104,000. Also, the invoices may have additional
            monetary impact that we were not able to quantify because of the lack of
            supporting documentation. In addition, FEMA’s redirection of trucks
            caused unauthorized expenditure of Government funds for onward miles
            and standby time.


Administration of the 2003 Ice Delivery Contract
     The Corps Charleston District did not effectively administer the 2003 ice delivery
     contract with IAP for the Hurricane Katrina recovery effort. The Corps
     Charleston District obligated about $102 million on requirements contract
     DACW64-03-D-0003 for ice and related services in support of the Hurricane
     Katrina recovery effort. Furthermore, the Corps Charleston District paid about
     $79.5 million on 342 invoices as of August 14, 2006. Of the 342 paid invoices,
     142 invoices contained 410 discrepancies that resulted in about $104,000 in net
     overpayments. Also, the invoices may have additional monetary impact that we
     were not able to quantify because of the lack of supporting documentation.
     Table 1 summarizes the paid ice and related services invoices and discrepancies
     relating to the Hurricane Katrina recovery effort.



                                         3

   Table 1. Paid Ice and Related Services Invoices on Contract DACW64-03-D-0003
                      for the Hurricane Katrina Recovery Effort

                                         Number
                                            of                          Number of          Net
                                         Invoices     Amount Paid      Discrepancies   Overpayment


Fully supported paid invoices              200        $42,072,276.45        0               0


Paid invoices containing discrepancies     142        37,394,938.37        410         $103,723.52

     Total paid invoices related to
                                           342        $79,467,214.82       410         $103,732.52
          Hurricane Katrina



Training and Guidance on the National Ice/Water Mission
        The Corps Charleston District did not effectively administer the 2003 ice
        delivery contract during the Hurricane Katrina recovery effort because it did not
        adequately train personnel receiving the ice from the contractor, or provide
        guidance for persons assigned to assist the Corps Charleston District Emergency
        Management Office in paying and reconciling invoices. The lack of Corps
        training for personnel accepting ice deliveries and Corps-issued guidance for
        personnel processing payments resulted in payments being made using missing,
        illegible, or inaccurate supporting documentation.

        Training for Accepting Ice. In 1999, the Corps established the National
        Ice/Water Mission Standard Operating Procedures (SOP) for accepting ice;
        however, personnel involved in the Hurricane Katrina recovery effort were not
        adequately trained on the SOP. Further, the Corps Charleston District did not
        conduct broad training on this SOP. Instead, the Corps Charleston District
        provided informal training on the National Ice/Water Mission SOP to both Corps
        and non-Corps Government personnel as they were assigned to the mission.

        The National Ice/Water Mission SOP provided guidance to personnel accepting
        ice at drop-off locations. The Corps detailed the responsibilities in its National
        Ice/Water Mission SOP for all those involved in the acceptance of ice during a
        disaster event. Specifically, the National Ice/Water Mission SOP states who at
        the drop-off locations is responsible for collecting documentation from the truck
        drivers and who is responsible for maintaining proper documentation necessary
        for Corps invoice processing.

        The Corps Charleston District relied on both Corps and non-Corps Government
        personnel for accepting the ice without adequate training on procedures. The
        Corps and non-Corps Government personnel were accepting shipments of ice and

                                                 4

signing off on delivery tickets at the drop-off locations. Corps Charleston District
personnel expected Government personnel to adequately document the receipt of
ice at drop-off locations with minimal training. The Corps should follow the
Army Federal Acquisition Regulation Manual No. 2 (Contingency Contracting).
Appendix C-2, “Responsibilities” states that employees should have adequate,
informal on-the-job training. The Corps and non-Corps Government personnel
submitted numerous copies of incomplete or inconsistent delivery tickets to the
Corps Charleston District for invoice processing. Additionally, the Corps and
non-Corps Government personnel did not always provide copies of the delivery
tickets to the Corps Charleston District. The Corps Charleston District provided
inadequate training to personnel accepting ice at drop-off locations that may have
caused increased invoice processing time and incorrect payments on the 2003 ice
delivery contract related to the Hurricane Katrina recovery effort. The Corps
should provide training on the National Ice/Water Mission SOP for all personnel
accepting ice at drop-off locations and not rely only on the National Ice/Water
Mission SOP as guidance.

Guidance for Invoice Processing. The Corps Charleston District did not
establish guidance for invoice processing for the National Ice/Water Mission.
Corps personnel from various districts were temporarily assigned to the Corps
Charleston District to assist with the National Ice/Water Mission during
Hurricane Katrina. The Army Federal Acquisition Regulation Manual No. 2
(Contingency Contracting) states that local regulations and published SOPs
preside over the processes of the contracting office. The Corps Charleston
District had not established an SOP for invoice processing at the time of the
Hurricane Katrina recovery effort. As a result, Corps Charleston District
personnel processed 142 invoices related to Hurricane Katrina that contained
410 discrepancies. The Corps should provide guidance by finalizing the draft
“Invoice Processing-National Ice/Water Mission” SOP and providing it to the
invoice processing personnel.

Training for Invoice Processing. The Corps Charleston District did not
sufficiently train personnel assigned to assist with the National Ice/Water Mission
on processing invoices during the Hurricane Katrina recovery effort. The Corps
should follow the Army Federal Acquisition Regulation Manual No. 2
(Contingency Contracting). Appendix C-2, “Responsibilities” states that
employees should be adequately trained. According to the Corps Charleston
District most of the Corps personnel temporarily assigned to assist with the National
Ice/Water Mission during the Hurricane Katrina recovery effort had no training on
invoice processing prior to arriving at the Corps Charleston District. The Corps
Charleston District provided assigned personnel limited informal training upon
arrival to assist with the Hurricane Katrina recovery effort. The Corps Charleston
District approved inaccurate or inadequately supported payments in the amount of
about $262,000 on 142 of the 342 invoices received. These included
underpayments of about $79,000 and overpayments of about $183,000. The end
result was an overpayment of nearly $104,000. Also, the invoices may have
additional monetary impact that we were not able to quantify because of the lack
of supporting documentation. The Corps should provide training for invoice
processing to all personnel involved with the emergency management operations at
the Corps Districts executing the National Ice/Water Mission.



                                      5

    Supporting Documentation. The Corps Charleston District did not always have
    adequate supporting documentation to process invoices during the Hurricane
    Katrina recovery effort. During our review, we identified instances where the
    Corps Charleston District processed invoices with missing, incomplete, or
    incorrect documentation. Specifically, we identified missing, incomplete, or
    incorrect:

       •   dates and times of arrival and departure at delivery sites,

       •   dates and times of arrival and departure at onward destinations,

       •   amounts of ice delivered,

       •   truck numbers,

       •   trailer numbers, and

       •   truck drivers’ names.

    The Corps Charleston District made payments on 142 invoices (totaling about
    $37.4 million) that contained 166 discrepancies totaling about $262,000; in
    addition, we identified 244 discrepancies that had a possible monetary impact that
    we could not determine. The Corps Charleston District could not reconcile all the
    delivery tickets against the contractor invoices because some delivery tickets were
    missing. As a result, the Corps Charleston District relied on the contractor’s
    delivery tickets that were sometimes incomplete or altered. The Corps should
    establish a checklist for personnel to use at the drop-off locations. This checklist
    should remind personnel to annotate the amount of ice delivered, as well as the
    dates and times when the ice was delivered. A standardized checklist should
    ensure uniformity of information obtained during disaster events and aid in
    accurately processing invoices.


Redirected Trucks
    FEMA personnel redirected some of the contracted ice trucks without following
    proper procedures of contacting the responsible contracting officer. Federal
    Acquisition Regulation Subpart 1.602, “Contracting Officers,” states that only a
    Government official with the proper authority can expend Government funds
    from a specific agency. A FEMA representative’s redirection of the ice trucks
    expended Government funds without authorization from a Corps official with the
    proper authority. The Corps and FEMA emergency management personnel
    should communicate more effectively during disaster events to ensure that
    assistance is provided in a timely manner and the funds are expended in
    accordance with regulations. We will issue a separate memorandum to the
    Department of Homeland Security regarding FEMA circumventing the Corps
    contracting officer authority in administering the 2003 ice delivery contract
    during the Hurricane Katrina recovery effort.




                                         6

The Corps Payments on Invoices
    The Corps Charleston District was inconsistent in accepting ice and documenting
    ice deliveries and in processing invoices during the Hurricane Katrina recovery
    effort, resulting in unsupported and inaccurate payments on the 2003 ice delivery
    contract for Hurricane Katrina. We also identified possible alteration of delivery
    tickets at a drop-off location and trucks in standby mode for excess time.

    Invoice Review. We reviewed 342 paid invoices totaling about $79.5 million.
    Of these we identified 142 paid invoices totaling about $37.4 million containing
    410 discrepancies. We originally identified 473 discrepancies, but the Corps
    Charleston District was able to address some of our concerns with supplementary
    information.

    The discrepancies resulting in underpayments and overpayments were caused by
    incorrect:

       •   dates and times of arrival and departure at delivery sites,

       •   dates and times of arrival and departure at onward destinations, and

       •   amounts of ice delivered.

    We could not determine the monetary impact, if any, for missing delivery tickets
    or delivery tickets with incorrect, missing, or illegible:

       •   dates and times of arrival and departure at delivery sites,

       •   dates and times of arrival and departure at onward destinations,

       •   amounts of ice delivered,

       •   truck numbers,

       •   trailer numbers, and

       •   truck drivers’ names.

    Overall, we identified payments on 142 invoices (totaling about $37.4 million)
    that contained 166 discrepancies totaling about $262,000; in addition, we
    identified 244 discrepancies that had a possible monetary impact that we could
    not determine. The Corps Charleston District should recoup the net difference of
    the underpayments and overpayments totaling $103,723.52. Table 2 provides a
    summary of the number and dollar amount of the invoices and discrepancies
    during our review of the 2003 ice delivery contract for the Hurricane Katrina
    recovery effort.




                                         7

                     Table 2. Discrepancies Identified During our Review


                                            Number                                            Amount of
                                              of                           Number of       Underpayments
                                           Invoices*     Amount Paid*     Discrepancies    / Overpayments

Discrepancies with undeterminable
 underpayments or overpayments                106        $29,680,603.23        244        Undeterminable

Discrepancies resulting in
underpayments
 to IAP                                       50         16,196,716.50         110            $79,048.82

Discrepancies resulting in overpayments
 to IAP                                       43         $10,416,542.33        56             182,772.34

          Total Discrepancies                                                  410           $261,821.16

           Net Overpayment                                                                   $103,723.52


* The number of invoices and the amount paid will not total because each invoice consisted of multiple
delivery tickets; therefore, an invoice could have an underpayment or overpayment, and an undeterminable
monetary impact.



        Altered Delivery Tickets at a Drop-Off Location. The Corps Charleston
        District made payments relying on possibly altered delivery tickets. We
        determined that hand-annotated times on the delivery tickets appeared to have
        been altered to increase the amount of standby time of delivery trucks at a specific
        drop-off location. These possible alterations may have resulted in increased
        payments made on the 2003 ice delivery contract. During the invoice review, we
        identified 75 delivery tickets for trucks that traveled through a specific drop-off
        location; the tickets appeared to be altered. The possible alteration increased the
        trucks’ standby time by a total of 364 hours and may have resulted in the Corps
        Charleston District overpaying at least $19,656. In some cases, the Corps
        Charleston District identified mistakes with the invoices and did not pay the
        inflated amount. In other cases, the Corps relied on the contractor’s copy of the
        delivery ticket because the Government copy was not available at the Corps
        Charleston District. We identified about 730 trucks processed through the
        specific drop-off location during our review of the 2003 ice delivery contract, but
        we could not determine how many delivery tickets were altered. We referred the
        possibly altered delivery ticket issue to the Defense Criminal Investigative
        Service for investigation.




                                                    8

          Excess Standby Time Agreement. The Corps Charleston District did not follow
          an e-mail agreement with IAP to split the cost evenly for trucks that were in
          standby mode for an inordinate amount of time. Excess standby time is the time a
          delivery truck waits at a location after its first hour of arrival. Four IAP
          subcontracted trucks stayed in standby mode at a single drop-off location for over
          7,500 hours or the cumulative equivalent of 10 months of excess standby time.
          For example, one of the subcontracted trucks stayed in standby mode at one
          drop-off location from September 9, 2005, through December 20, 2005, or over
          14 continuous weeks. Without the agreement to split the costs, the Corps
          Charleston District would be required to pay over $9,000 per week under the
          terms of the contract. However, IAP and the Corps Charleston District split only
          two of the invoiced amounts evenly. The Corps paid the full amount on the
          remaining two trucks. The Corps should have followed its agreement with IAP to
          split the excess standby time to avoid an overpayment of about $115,000. The
          $115,000 is a part of the approximately $262,000 in underpayments and
          overpayments identified in Table 2. See Table 3 for a breakdown of the costs and
          excess standby time related to the four trucks and the excess cost the Corps
          Charleston District incurred from not splitting the cost evenly on all four trucks.

                      Table 3. Four Trucks on Excess Standby Time
                 Continuous                            IAP/Corps                        Corps
               Excess Standby     Total Excess        Charleston        Corps         Charleston
               Hours (Rounded      Standby at           District     Charleston        District
                to the Nearest    Contracted          Agreed Split   District Paid   Overpayment
                    Hour)             Rate              Amount         Amount          Amount


Truck 1              1,106         $59,724.00         $29,862.00      $29,862.00          0

Truck 2              1,787         96,498.00           48,249.00      96,498.00       $48,249.00


Truck 3              2,207         119,178.00          59,589.00      59,589.00           0


Truck 4              2,456         132,624.00          66,312.00      132,624.00      66,312.00

   Total             7,556        $407,970.00         $204,012.00    $318,573.00     $114,561.00


Automated Tracking System
          The Corps Charleston District invoice processing may have been more accurate
          and the ice delivery effort could have required less standby time if the Corps
          required all ice delivery trucks to be equipped with an automated tracking system.
          Automated delivery data would help eliminate potential issues with illegible
          handwriting and human error. The Corps made automated tracking a requirement
          on the 2006 ice delivery contract, but invoices will still be processed using the
          current method. If the Corps determines that the electronic data cannot be
          manipulated, electronic data would provide one central depository for all ice


                                                 9

     delivery information and invoice processing. If the Corps Charleston District had
     the ability to monitor the ice delivery truck location during Hurricane Katrina, the
     amount of excess time paid for on the 2003 ice delivery contract may have been
     reduced.

     Automated Tracking System. An automated tracking unit is a device that tracks
     the exact location of a vehicle and records the position at regular intervals. The
     recorded location data can be stored within the tracking unit, or can be transmitted
     to a central location data base. An automated tracking unit allows the truck’s
     location to be displayed against a map backdrop either in real-time or when the
     data is analyzed later, using customized software.

     Truck Tracking on the 2003 Ice Delivery Contract. The Corps Galveston
     District did not require an automated tracking system on the 2003 ice delivery
     contract. Some trucks were equipped with automated tracking capabilities;
     however, the Corps Charleston District was not privy to the information.
     Therefore, Corps Charleston District personnel were unable to track these trucks
     en route to staging areas during the Hurricane Katrina recovery effort, or rely on
     the information when processing invoices. The Corps Charleston District could
     have reduced the resources used to process invoices and shorten excess standby
     hours if they had access to automated tracking information.

     Automated Tracking Requirement for the 2006 Ice Delivery Contract. The
     Corps Savannah District requires an automated tracking system for each vehicle
     in transit for the 2006 ice delivery contract. According to the 2006 ice delivery
     contract, the contractor is required to monitor and record the automated tracking
     system information at a central location. The contractor must also report
     information collected on vehicle movement and location to the Corps at a
     minimum of 4-hour intervals and within 1 hour of the Corps request for this
     information as long as any ice delivery vehicles are in transit. The 2006 ice
     delivery contract is further discussed in the “Other Matters of Interest” section.


Corrective Actions
     The Corps Charleston District determined a need to establish guidance for invoice
     processing following the Hurricane Katrina recovery effort. The Corps
     Charleston District drafted the “Invoice Processing-National Ice/Water Mission”
     SOP on November 1, 2006. The Corps Charleston District specifies in this draft
     SOP the procedures for reviewing contractor invoices for payment and the steps
     for reconciling contractor invoices for payment after review. The Corps needs to
     finalize the draft SOP, “Invoice Processing-National Ice/Water Mission.”


Conclusion
     The Corps must adequately train personnel and implement guidance for invoice
     processing in executing the National Ice/Water Mission. The Corps Charleston
     District did not provide adequate training and guidance for invoice processing


                                          10

     over the National Ice/Water Mission. They made inaccurate or inadequately
     supported payments on 142 of the 342 invoices received in the amount of about
     $262,000. These included underpayments of about $79,000 and overpayments of
     about $183,000. The end result was an overpayment of nearly $104,000. The
     paid invoices may include payments on possibly altered delivery tickets and
     excess charges to the contract. The Corps must finalize the draft SOP for invoice
     processing and train personnel on SOPs for acceptance of ice deliveries and
     invoice processing to ensure proper execution of the National Ice/Water Mission.

Other Matters of Interest
     We identified several areas of interest during our review of the Corps Charleston
     District administration of the ice delivery contract used during the Hurricane
     Katrina recovery effort. These areas include FEMA directing the Corps
     Charleston District to order excess amounts of ice, the Corps Savannah District
     awarding of a new ice delivery contract, and the Corps’ possible reprisal action
     against one of its contracting officers.

     Federal Emergency Management Agency. FEMA employees directed the
     Corps Charleston District to order excess quantities of ice during the Hurricane
     Katrina recovery effort. Therefore, the Corps Charleston District personnel
     continued to place delivery orders against the 2003 ice delivery contract although
     many trucks were in standby status at various drop-off locations. As a result, the
     Government paid about $18 million for the ice, about $6 million for storage for up
     to 1 year, plus the costs associated with additional ground mileage and standby
     time for the excess quantities of ice and extra trucks.

     The Corps Charleston District officials also received documentation from IAP
     regarding FEMA employees’ threats to arrest a truck driver. An IAP
     subcontractor sent a memorandum to IAP documenting that FEMA employees
     threatened to arrest a driver if he did not continue on with his load to the disaster
     area. The IAP subcontractor chose not to deliver anymore FEMA loads after
     experiencing this treatment.

     2006 Emergency Ice Delivery Contract. The Corps Savannah District
     contracting officials awarded a full and open competitive requirements contract,
     W912HN-07-D-0007, to IAP on December 22, 2006, for a not to exceed amount
     of $350 million with 1 base year and 2 option years. The contract is for packaged
     ice and necessary supporting items and services, to include refrigerated storage
     units (reefers), transportation, loading and unloading of shipments, drayage,
     operation and maintenance of reefers, participation in partnering activities, and
     provision for strategic planning services. According to the contract, the
     contractor is required to respond immediately for production, delivery, and
     reporting. The Corps will use this contract to perform the Emergency Service
     Function #3 responsibilities for man-made or natural emergency or disaster
     response and recovery efforts under the 2004 NRP. The contract stipulates that
     the trucks used for transporting ice be equipped with an automated tracking
     system. The contractor will use this automated tracking system and transmit
     collected data to the Corps every 4 hours while trucks are en route.



                                           11

    The Corps District responsible for the National Ice/Water Mission will also
    change starting March 30th of each year. The National Ice/Water Mission
    responsibility will be rotated between the Charleston District and the
    Albuquerque District. Both Districts’ emergency management personnel will
    receive training for executing the National Ice/Water Mission prior to deployment
    rather than during emergency situations.

    Potential Corps Contracting Officer Reprisal. Corps senior procurement
    officials may have pressured a contracting officer to issue delivery orders for ice
    and related services during the Hurricane Katrina recovery effort without
    appropriate documentation for the purchase. The contracting officer refused
    because his approval would have resulted in potential Antideficiency Act
    violations. The Corps senior officials reassigned the contracting officer to the
    Corps Emergency Management Office after his refusal. Additionally, the
    contracting officer alleges that his refusal has resulted in multiple forms of
    reprisal including loss of promotion potential and privileges. His complaints have
    been referred to the DoD IG Office of Civilian Reprisal for further investigation.

    Conclusion. We identified these other matters of interest during our review of
    the administration of the 2003 ice delivery contract. These other matters were
    issues we wanted to address although audit recommendations are not required.
    We will address the issues regarding FEMA in a memorandum to the Department
    of Homeland Security. Both the Corps and FEMA emergency management
    personnel need to cooperate to correct the issues. The Corps Savannah District
    developed and awarded the 2006 Advance Contracting Initiatives emergency ice
    delivery contract using lessons learned from Hurricane Katrina. The new contract
    should provide a more efficient and accurate process for preparing, executing, and
    final processing of relief efforts during emergency situations. The DoD IG’s
    Office of Civilian Reprisal is currently investigating the Corps contracting
    official’s case.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commander, U.S. Army Corps of Engineers:

           1. Ensure that all personnel are adequately trained on procedures
    applicable to their duties before performing the National Ice/Water Mission.
    Specifically, these procedures should include Government personnel duties
    to accept and document ice deliveries and services on behalf of the U.S. Army
    Corps of Engineers.

    Management Comments. The Chief, Audit Executive for the Headquarters
    Internal Review Office, U.S. Army Corps of Engineers, responding for the
    Commander, concurred, stating that Corps personnel at the Districts performing
    the National Ice/Water mission will receive annual training, and personnel at
    receiving sites will receive “just-in-time” training during emergencies.



                                        12

Audit Response. The comments were responsive to the recommendation, and no
additional comments are required.

       2. Finalize the Standard Operating Procedures for invoice processing.
Specifically, these procedures should include internal controls on
documenting and retaining information related to the invoice payment
process.

Management Comments. The Chief, Audit Executive for the Headquarters
Internal Review Office, U.S. Army Corps of Engineers, responding for the
Commander, concurred. The draft SOP is currently 80 percent complete and
should be finalized in August 2007.

Audit Response. The comments were responsive to the recommendation, and no
additional comments are required.

       3. Recoup the net amount of $103,723.52 in identifiable overpayments
on the 2003 ice delivery contract DACW64-03-D-0003 from International
American Products, Worldwide Services.

Management Comments. The Chief, Audit Executive for the Headquarters
Internal Review Office, U.S. Army Corps of Engineers, responding for the
Commander, concurred, stating that the Corps expects to complete the
reconciliation by October 2007, and bill the contractor accordingly.

Audit Response. The comments were responsive to the recommendation, and no
additional comments are required.

       4. Determine whether the automated tracking system required by the
2006 ice delivery contract produces accurate data. The U.S. Army Corps of
Engineers should determine the accuracy of the data and modify the current
and future ice delivery contracts to allow submission of automated data to be
used for processing invoices. The U.S. Army Corps of Engineers would still
require delivery tickets to show acceptance of the ice and to supplement the
automated tracking data. The data could speed invoice processing while
reducing processing errors from incomplete and illegible delivery tickets.

Management Comments. The Chief, Audit Executive for the Headquarters
Internal Review Office, U.S. Army Corps of Engineers, responding for the
Commander, concurred, stating the new contract requires a Global Positioning
System tracking system and Corps personnel will be comparing the Global
Positioning System data with the delivery tickets for future invoices.

Audit Response. The comments were responsive to the recommendation, and no
additional comments are required.




                                   13

Appendix A. Scope and Methodology
   The Corps’ Principal Assistant Responsible for Contracting requested a review on
   the administration of contract DACW64-03-D-0003 between International
   American Products, Worldwide Services and the U.S. Army Corps of Engineers.
   Specifically, we limited our review to only the administration of the ice delivery
   process during the Hurricane Katrina recovery effort. We originally initiated an
   audit of the award of the emergency ice delivery contracts at the request of
   Congressman Bennie Thompson. DoD IG Report No. D2006-116, “Ice Delivery
   Contracts Between International American Products, Worldwide Services and the
   U.S. Army Corps of Engineers,” September 26, 2006, addressed Congressman
   Bennie Thompson’s concerns.

   We reviewed the Army Federal Acquisition Regulation Manual No. 2
   (Contingency Contracting) December 1993; Federal Acquisition
   Regulation 1.602, “Contracting Officers”; and the “2004 NRP Emergency
   Support Function #3 - Public Works and Engineering.”

   We reviewed the Corps draft SOP titled “Invoice Processing-National Ice/Water
   Mission,” dated November 1, 2006, and the 1999 SOP titled “National Ice/Water
   Mission.” We reviewed contract DACW64-03-D-0003, November 21, 2002, that
   was used for the emergency ice purchase in order to address the Principal
   Assistant Responsible for Contracting’s concerns. We reviewed the status of a
   solicitation for a contract being issued as a result of the expiration of the
   November 21, 2002, ice delivery contract. We also reviewed the automated
   tracking system requirement in the current emergency ice delivery contract,
   W912HN-07-D-0007, December 22, 2006.

   We interviewed personnel from two Corps office locations (Corps Headquarters,
   Washington, District of Columbia; and Corps Charleston District, South Carolina)
   to determine their involvement and understanding of the ice delivery contract and
   invoice processing. Corps personnel we met with included contracting,
   emergency management, internal review, legal, resource management, and
   finance personnel. We obtained information on how the invoices from IAP were
   processed by the Corps Charleston District. We interviewed personnel from IAP
   (Irmo, South Carolina). We received information and documentation on the
   process IAP used to invoice the Corps Charleston District.

   We conducted a review of all the paid invoices related to Hurricane Katrina
   delivery orders and amendments dated from August 28 through September 20,
   2005. The Corps categorized delivery orders by packaged ice delivered,
   additional ground mileage, standby time in excess of 1 hour, administrative
   overhead, stop work order for standby time, daily operations first reefers, daily
   operations additional reefers, and line haul. In addition, we reviewed the Corps
   Charleston District’s master spreadsheet identifying 422 invoices totaling about
   $80.3 million, dated from September 2, 2005, through May 27, 2006. See the
   table for a summary of the 422 invoices.




                                       14

        Invoice and Dollar Amounts for the Corps Charleston District’s

                             Master Spreadsheet 




                                                              Dollar Amount Paid (Rounded to
                                      Number of Invoices               the Nearest Thousand)

Packaged ice                                          135                       $46,520,000

Additional ground
mileage / Standby time                                207                        32,947,000


Outside of our scope                                  80*                          864,000*

Total                                                 422                      $80,331,000

*73 of the 80 invoices outside of our scope did not have a paid amount.

We performed this audit starting in December 2005. We suspended this audit
from February 2006 through September 2006 to concentrate on addressing
Congressman Thompson’s request. We completed this audit from
September 2006 through June 2007 in accordance with generally accepted
government auditing standards. The evidence provided a reasonable basis for our
finding.

We reviewed 342 paid invoices totaling about $79.5 million relating to ice and
related services during the Hurricane Katrina recovery effort. We limited our
scope to invoices that were paid by the start of our review on August 14, 2006.
The reviewed invoices were for packaged ice, additional ground mileage, and
standby time in excess of 1 hour. Specifically, the invoices not in our scope were
for daily operations, administration overhead, standby time associated with stop
work orders, invoices not related to Hurricane Katrina, and invoices marked
“not paid.”

Use of Computer-Processed Data. We used the Corps Charleston District’s
spreadsheets for informational purposes. We did not assess the reliability of
computer-processed data because the data were not a basis for a conclusion or
finding.

Government Accountability Office High Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This
report provides coverage of the DoD Contract Management high-risk area.




                                          15

Appendix B. Prior Coverage 

    During the last 2 years, GAO, DoD IG, the Army Audit Agency, and the Naval
    Audit Service have issued 11 reports and testimonies discussing contracts for the
    Hurricane Katrina recovery effort. Unrestricted GAO reports can be accessed
    over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
    accessed at http://www.dodig.mil/audit/reports. Unrestricted Army Audit Agency
               H                                  H




    reports can be obtained by contacting the agency. Unrestricted Naval Audit
    Service reports can be accessed at http://www.hq.navy.mil/NavalAudit.
                                      H                                  H




GAO
    GAO Report No. GAO-06-834, “Governmentwide Framework Needed to Collect
    and Consolidate Information to Report on Billions in Federal Funding for the
    2005 Gulf Coast Hurricanes,” September 6, 2006

    GAO Testimony No. GAO-06-714T, “Improving Federal Contracting Practices in
    Disaster Recovery Operations,” May 4, 2006

    GAO Testimony No. GAO-06-622T, “Planning for and Management of Federal
    Disaster Recovery Contracts,” April 10, 2006


DoD IG
    DoD IG Report No. D-2007-055, “Contract Administration of the Water Contract
    Between the Lipsey Mountain Spring Water Company and the United States
    Army Corps of Engineers,” February 5, 2007

    DoD IG Report No. D-2007-038, “U.S. Army Corps of Engineers’ ‘Operation
    Blue Roof’ Project in Response to Hurricane Katrina,” December 22, 2006

    DoD IG Report No. D-2006-116, “Ice Delivery Contracts Between International
    American Products, Worldwide Service and the U.S. Army Corps of Engineers,”
    September 26, 2006

    DoD IG Report No. D-2006-109, “Response to Congressional Requests on the
    Water Delivery Contract Between the Lipsey Mountain Spring Water Company
    and the United States Army Corps of Engineers,” August 29, 2006




                                          16

Army Audit Agency
    Army Audit Agency Report No. A-2007-0016-FFD, “Debris Removal Contracts,”
    November 9, 2006

    Army Audit Agency Report No. A-2006-0198-FFD, “Contracts for the Hurricane
    Protection System in New Orleans,” August 22, 2006


Naval Audit Service
    Naval Audit Service Report No. N2007-0021, “Hurricane Relief Funds for
    Military Family Housing Construction at Gulfport and Stennis Space Center,
    Mississippi,” March 27, 2007

    Naval Audit Service Report No. N2006-0015, “Chartered Cruise Ships,”
    February 16, 2006




                                      17

Appendix C. Delivery Ticket Process

Truck leaves ice plant. Delivery ticket
shows only general information about the
truck, driver, trailer, and delivery load.


Government representative logs in truck
when it reaches destination. Government
representative logs out truck after unloading
or being sent to an onward location.
Logging in or out consists of completing one          Government representative provides
line on the delivery ticket showing date,             a copy of the delivery ticket to the
times, and approving signature of                     Corps Charleston District and they
Government representative. Government                 maintain it for invoice
representative makes a copy of the delivery           reconciliation.
ticket and the driver maintains the original.
Additional ground mileage begins to accrue
if Government directs truck beyond this


Truck reaches onward locations.
Government representative logs the truck in           Government representative provides
and out and makes a copy of the delivery              a copy of the delivery ticket to the
ticket at each location. Driver maintains             Corps Charleston District and they
original delivery ticket.                             maintain it for invoice
                                                      reconciliation.

After completing delivery, the truck driver
submits original delivery ticket to IAP for
payment.


IAP compiles and submits the invoices based
on the original delivery tickets provided by
the truck drivers. IAP provides copies of the
original delivery tickets to the Corps
Charleston District to support the invoice.


The Corps Charleston District reconciles
invoices to copies provided earlier by each
delivery location. The Corps Charleston
District makes payments if it agrees with
invoice. The Corps Charleston District
returns the invoice to IAP with explanation
noted if not in agreement. The Corps
Charleston District repeats the submission
process until they reach an appropriate
amount.


                                                18

Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Chief of Engineers United States Army Corps of Engineers

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Oversight and Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Oversight and Government Reform
House Committee on Homeland Security


                                          19

Department of the Army


                              DEPARTMENT OF THE ARMY
                               U.S. ARMY C O R P S OF ENGINEERS
                                        441 G ST. NW
                                WASHINGTON, D C . 20314-1000




     CEIR (36-2b)                                                 31 July 2007

     MEMORANDUM FOR DEPARTMENT OF DEFENSE OFFICE OF THE
     INSPECTOR GENERAL

     SUBJECT: DODIG Draft Report - Project No. D2006-D000CG-0075.000 ­
     Contract Administration of the Ice Delivery Contract between International
     American Products, Worldwide Services and U. S. Corps of Engineers during
     the Hurricane Katrina Recovery Effort

     1. Thank you for the opportunity to review the subject draft report and
     provide comments. Our response to the four recommendations is enclosed.

     2. Question should be referred to either Ms. Alicia Matias (202-761-4375)
     or Ms. Donna Johnson (202-761-8518).

     FOR THE COMMANDER:




     Encl                        DONALD J . RIPP
                                 Chief, Audit Executive
                                 HQ Internal Review Office




                                            21 

    DODIG Draft Report - Project No. D2006-D000CG­
   0075.000 - Contract Administration of the Ice Delivery
     Contract between International American Products,
   Worldwide Services and U. S. Corps of Engineers during
           the Hurricane Katrina Recovery Effort

RECOMMENDATION 1 - Ensure that all personnel are adequately trained on procedures
applicable to their duties before performing the National Ice/Water Mission. Specifically,
these procedures should include Government personnel duties to accept and document
ice deliveries and service on behalf of the U.S. Army Corps of Engineers.

        Management Response: Concur. Albuquerque District and Charleston District
Planning Response Team members have received training this fiscal year and will receive
training each year. Quality Assurance personnel will receive "just-in-time training at the
staging areas by USACE personnel and FEMA. Personnel at "point of delivery" locations
will also receive the same type training,


RECOMMENDATION 2 - Finalize the Standard Operating Procedures for invoice
processing.  Specifically, these procedures should include internal controls on
documenting and retaining information related to the invoice payment process.

        Management Response: Concur. The draft SOP for invoice processing will be
finalized by August 2007. The draft is currently 80 percent complete.


RECOMMENDATION 3 - Recoup the net amount of $103,723.52 in identifiable
overpayments on ice delivery contract DACW64-03-D-0003 from International
American Products, Worldwide Services.

       Management Response: Concur. The Charleston District is currently reconciling
invoice document spreadsheets provided by the DOD IG to validate the over and under
payments. Expect to be completed by 30 October 2007. Once validation is made,
contractor will be invoiced for overpayments in accordance with RM billing policies.


RECOMMENDATION 4 • Determine whether the automated tracking system required by
the 2006 ice delivery contract produces accurate data. The U . S . Army Corps of
Engineers should determine the accuracy of the data and modify the current and future
ice delivery contracts to allow submission of automated data to be used for processing
invoices. The U.S. Army Corps of Engineers would still require delivery tickets to show




                                           22 

DODIG Draft Report - Project No. D2006-D000CG-0075.000 - Contract
Administration of the Ice Delivery Contract between International American
Products, Worldwide Services and U. S. Corps of Engineers during the
Hurricane Katrina Recovery Effort (Cont'd)

acceptance of the ice and to supplement the automated tracking data. The data could
speed invoice processing while reducing processing errors from incomplete and illegible
delivery tickets.

        Management Response:        Concur.      International American Products (1AP),
Worldwide Services was awarded a new contract on 22 December 2006. This contract
includes new requirements for an internet based report and Global Positioning System
(GPS) tracking system. As part of the award decision, IAP proposed a GPS and Satellite
Tracking system that is integrated with their database and is linked live, therefore causing
less opportunity for error during reporting and invoice validation and allows real time
access to data. To further support this, IAP hasfieldtested the system during last year's
Hurricane Ernesto.

Reconciliation of invoices will be done by verifying invoices with USACE ticket receipts
and contractor GPS data. If the GPS data can be verified across the board we will
recommend future reconciliation be done by spot checking hard copy data tickets with
GPS data.

Under this contract, as part of partnering activities and strategic planning services, IAP is
required to provide demonstrations and training material of this tracking system to the
Government Selection Team as well as the users of this system during an event. To date,
IAP has conducted four training sessions; during the award decision; immediately after
contract award to Charleston District personnel; during the turn over to Albuquerque
District personnel and most recently, a partnering session with FEMA.




                                             2




                                            23 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Deborah L. Culp
Bobbie S. Wan
Gary B. Dutton
Jeffrey L. Steinbauer
Rachel L. Herman
Jonathan M. Kistler
Meredith H. Johnson
